Department of Homeland Security
   Ofﬁce of Inspector General

            U.S. Coast Guard's Management Letter for 
 

               FY 2010 DHS Consolidated Financial 
 

                        Statements Audit 
 





OIG-11-59                                            March 2011
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                           MAR 2 1 2011

                                              Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the U.S. Coast Guard's Management Letter for FY 2010 DHS
Consolidated Financial Statements Audit. It contains observations related to internal
control that were not required to be reported in the financial statements audit report. The
independent public accounting firm KPMG LLP (KPMG) performed the integrated audit
ofDHS' FY 2010 financial statements and internal control over financial reporting and
prepared this management letter. KPMG is responsible for the attached management
letter dated March 1, 2011, and the conclusions expressed in it. We do not express
opinions on DHS' financial statements or internal control, or provide conclusions on
compliance with laws and regulations.

The observations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to               r
the preparation of this report.




                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036-3389




March 1, 2011


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security U.S. Coast Guard
Washington, DC


Ladies and Gentlemen:

We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS
or Department) as of September 30, 2010 and the related statement of custodial activity for the
year then ended (referred to herein as “financial statements”). We were also engaged to examine
the Department’s internal control over financial reporting of the balance sheet as of September 30,
2010, and the statement of custodial activity for the year then ended. We were not engaged to
audit the accompanying statements of net cost, changes in net position, and budgetary resources
for the year ended September 30, 2010 (referred to herein as other fiscal year (FY) 2010 financial
statements), or to examine internal control over financial reporting over the other FY 2010
financial statements.

Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the
scope of our work was not sufficient to enable us to express, and we did not express, an opinion
on the FY 2010 financial statements and we were unable to perform procedures necessary to form
an opinion on DHS’ internal control over financial reporting of the balance sheet as of September
30, 2010 and the related statement of custodial activity for the year then ended. U.S. Coast Guard
(USCG or Coast Guard) is a component of DHS. We noted certain matters involving internal
control and other operational matters, related to Coast Guard that are summarized in the Table of
Financial Management Comments on the following pages, and presented for your consideration in
Section I of this letter. These comments and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies. These comments are in addition to the significant deficiencies
presented in our Independent Auditors’ Report, dated November 12, 2010, included in the FY
2010 DHS Annual Financial Report. A description of each internal control finding, not related to
information technology, and its disposition as either a significant deficiency or a financial
management comment is provided in Appendix A. Our findings related to information
technology systems security have been presented in a separate letter to the Office of Inspector
General and the USCG Chief Financial Officer and Chief Information Officer.

As described above, the scope of our work was not sufficient to express an opinion on the balance
sheet as of September 30, 2010 or the statement of custodial activity of DHS for the year then
ended, and we were not engaged to audit the statements of net cost, changes in net position, and
budgetary resources for the year ended September 30, 2010. Accordingly, other internal control
matters may have been identified and reported had we been able to perform all procedures
necessary to express an opinion on the FY 2010 financial statements and had we been engaged to
audit the other FY 2010 financial statements. We aim, however, to use our knowledge of DHS’
organization gained during our work to make comments and suggestions that we hope will be
useful to you.

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
USCG’s written response to our comments and recommendations has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.

We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of DHS’ and USCG’s management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,
                                          U.S. Coast Guard
                              Table of Financial Management Comments
                                         September 30, 2010

              TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                     Page(s)

FMC 10-01   Legal Liability Reporting                                      2
FMC 10-02   Accrued Payroll and Unfunded Leave Accrual (Military)         2-3
FMC 10-03   Operating Materials and Supplies (OM&S)                       3-4


                                            APPENDIX
Appendix    Subject                                                    Page(s)

   A        Crosswalk – Financial Management Comments to Active NFRs     5-6
   B        Status of Prior Year NFRs                                    7-8
   C        Management Response                                          9-12




                                                    1
 

                                                                                                     Section I
                                            U.S. Coast Guard
                                    Financial Management Comments
                                          September 30, 2010


FMC 10-01 – Legal Liability Reporting (NFR No. USCG 10-12)

       We performed test work in fiscal year (FY) 2010 for contingent legal liabilities (CLL) and
       identified the following:
       �	 U.S. Coast Guard (USCG or Coast Guard) has not documented the rationale supporting the
           20 percent threshold prescribed to perform the quarterly floor to file checks of open case files
           in the desktop procedures for CLL.
       �	 Mathematical errors on the historical payout rate calculation, management schedule, and
           aggregate reports including:
                �	 Use of incorrect outliers to calculate the historical payout rate for “loss of profits”
                    claim type affecting the rate by 0.0037 percent. As the Coast Guard rounds to two
                    decimals for calculating the liability, this difference did not affect the ending liability
                    balance. Although this did not cause a financial statement impact, USCG did not
                    remove the correct outliers in accordance with the approved historical payout rate
                    calculation methodology.
                �	 Incorrect payout rate was applied to “affirmative defense” claims type on the
                    Management Schedule and Aggregate Report as of June 30, 2010 causing an
                    overstatement of $2,723,014.
                �	 Incorrect exclusion of certain “contract” claims type in the amount of $606,686 due
                    to a formula error on the Aggregate Report as of June 30, 2010, which potentially
                    understated the CLL balance and upper liability range in the CLL disclosure.
       �	 USCG included a case in the CLL balance as of June 30, 2010 as an open case; however, per
           inspection of the Judgment Fund Report, the associated claims were paid on June 2, 2010.
           Therefore, the case should have been reported as closed as of June 30, 2010, resulting in an
           overstatement of $2,716,200 to the CLL balance as of June 30, 2010.

       Recommendations:
       We recommend that the Coast Guard:
       �	 Review, document, and implement a process to support the 20% threshold prescribed for the
          quarterly floor to file check of open case files.
       �	 Develop, document, and implement controls over the mathematical calculation of the
          historical payout rate calculation, management schedule, and aggregate reports to prevent
          errors.
       �	 Develop, document, and implement a process to ensure that settlements paid out of the
          Judgment Fund are properly captured in the quarterly legal liabilities balance calculation.

FMC 10-02 – Accrued Payroll and Unfunded Leave Accrual (Military) (NFR No. USCG 10-22)

       Coast Guard’s accrued payroll and unfunded leave process related to military payroll lacked
       appropriately designed policies/procedures and internal controls as follows:
       �	 Coast Guard lacked appropriate controls to identify an incorrect pay change made to 2 of 25
           sampled Active/Reserve members.
       �	 Coast Guard was unable to provide documentation to support 3 of 25 sampled
           Retiree/Annuitant member’s tax withholdings.
       �	 Coast Guard recorded an unfunded leave liability at June 30, 2010 and September 30, 2010
           for 49 and 14 retired or separated employees in the amount of $200,135 (0.11 percent error)




                                                     2
 

                                                                                               Section I
                                          U.S. Coast Guard
                                  Financial Management Comments
                                        September 30, 2010


          and $50,129 (0.03 percent error), respectively, even though they no longer had any leave
          balance outstanding as of those dates.
       �	 Coast Guard manually over-adjusted one member’s leave balance by one day as of
          September 30, 2010.

       Recommendations:
       We recommend that Coast Guard continue to reinforce, test, and validate internal controls to
       ensure the policies and procedures requiring management review of member personnel data
       changes at the Servicing Personnel Offices (SPOs) and the Pay & Personnel Center (PPC),
       include:
       �	 Review and approval for pay transactions.
       �	 Review of source documentation for request and approval of leave transactions.
       �	 Review of account balances included in the leave liability calculation.

FMC 10-03 – Operating Materials and Supplies (OM&S) (NFR No. USCG 10-23)

We performed test work in FY 2010 over OM&S at the two inventory control points (ICPs) and identified
the following:

       Interim Results: October 1, 2009 – June 30, 2010
       �	 Out of a sample of 26 items at Surface Forces Logistics Center (SFLC), KPMG identified 7
           exceptions associated with the weighted-average pricing. Exceptions resulted from data entry
           errors and a lack of historical supporting documentation to support past receipt items, which
           affected the weighted-average price. The exceptions resulted in a known overstatement of
           $4,440,046 and an understatement of $264,725 from a population of $72.5 million. The
           overstatement amount includes approximately $4.4 million category 3 (e.g. items held for a
           vessel in-transit) items that have been issued to the end user, and therefore should not be in
           the general ledger.
       �	 Out of a sample of 64 items at Aviation Logistics Center (ALC), KPMG identified 13
           exceptions associated with the weighted-average pricing. Similar to SFLC, exceptions
           resulted from data entry errors and a lack of historical documentation to support past receipt
           items, which affected the weighted-average price. The exceptions resulted in a known
           overstatement of $53,424 and an understatement of $20,029 from a population of $152
           million.
       �	 Out of a sample of 34 receipts, KPMG identified 1 item that appeared to be correctly
           classified as OM&S; however, the SFLC could not supply a standard classification form to
           document this classification.
       �	 From a selected sample of 40 disposals, KPMG identified 17 items where the ALC could not
           supply proper disposal event documentation.
       �	 KPMG also noted gaps in policies and procedures that prevent consistently implemented
           control procedures between ALC and USCG Air Stations. Inconsistent document retention
           requirements and non-standardized forms can increase the risk of control findings. For
           example, one USCG Air Station could not provide documentation for 1 out of 34 selected
           items.




                                                   3
 

                                                                                        Section I
                                   U.S. Coast Guard
                           Financial Management Comments
                                 September 30, 2010


Final Results: July 1, 2010 – September 15, 2010
�	 KPMG noted that one USCG Air Station could not provide source documentation for 1 out of
    the 33 selected items.
�	 Out of a sample of 12 items at SFLC, KPMG identified 2 exceptions associated with the
    weighted-average pricing. Both exceptions resulted from items classified as repairables but
    were recorded as consumables in SGL account 1511, Operating Materials and Supplies Held
    for Use. These exceptions resulted in a known overstatement of $610,197.
�	 Out of a sample of 22 items at ALC, KPMG identified 2 exceptions associated with the
    weighted-average pricing. Both exceptions were a result of timing lags between receipt of
    the invoice and execution of the intragovernmental payment and collection (IPAC)
    transaction. These exceptions resulted in a known overstatement of $1,056.

Recommendations:
We recommend that Coast Guard:
�	 Review and remediate issues concerning classification between repairables (recorded as
   property, plant, and equipment (PP&E)) and consumables (recorded as OM&S), valuation
   procedures involving weighted-average pricing, the time lag between the execution of IPACs
   by other federal agencies, and the disposal of material excess to the USCG need.
�	 Record differences identified during the FY 2010 valuation testing for sample items reviewed
   for SFLC and ALC.
�	 Perform an analysis to determine the cause of the errors identified during the FY 2010 testing
   and identify improvements to controls and procedures.
�	 Review quarterly validation procedures and make changes to further emphasize the need to
   perform valuation validation procedures at the ICPs as part of the quarterly review
   procedures.
�	 Review the policies, procedures, and internal controls associated with material handling
   forms used at air stations as well as the need for standardized forms at these locations.




                                           4
 

                                                                                                                 Appendix A
                                                U.S. Coast Guard
                              Crosswalk - Financial Management Comments to NFRs
                                               September 30, 2010


                                                                                                    Disposition1
                                                                                                    IAR            FMC
      NFR No.                                       Description                             MW       SD     NC      No.
        10-01       Heritage Assets                                                          D
        10-02       Purchase Requests / Commitments                                          F
        10-03       Statement of Net Cost                                                    A
        10-04       Contracting Officer Warrant Authority                                    B
        10-05       Environmental Liabilities                                                E
        10-06       PP&E Non-Construction in Process (CIP) Assets                           B, D
        10-07       Vessels and Small Boats Useful Lives                                     D
        10-08       Federal Financial Management Improvement Act (FFMIA)                     B               J
        10-09       Cumulative Results of Operations (CRO)                                   A
        10-10       Financial Disclosure Reports                                                      G
        10-11       PP&E Asset Records                                                       D
        10-12       Legal Liability Reporting                                                                      10-01
        10-13       Actuarial Post Employment Travel Liability                               E
        10-14       Property, Plant, and Equipment: Repairables                              D
        10-15       Intragovernmental Transactions and Balances                             A, B
        10-16       Property, Plant, and Equipment: 4th Quarter Site Visit Observations      D
        10-17       PP&E Construction in Progress                                            D
        10-18       Financial Management Oversight                                        A, B, D     G
        10-19       Permanent Change of Station – Separation / Retirement Presentation       A
        10-20       Fund Balance with Treasury (FBWT) – Reconciliations                     B, C
        10-21       Suspense Accounts                                                       B, C
        10-22       Accrued Payroll and Unfunded Leave Accrual (Military)                                          10-02
        10-23       Operating Materials and Supplies                                                               10-03
        10-24       Accrued Payroll and Unfunded Leave Accrual                               E
        10-25       FY 2010 Actuarial Liabilities Restatement                                E
        10-26       Accounts Payable Accrual                                                 E
        10-27       Undelivered Orders                                                       F
        10-28       Financial Reporting Process                                              A
        10-29       Federal Managers’ Financial Integrity Act                                                I
        10-30       Actuarial Medical Liabilities                                            E
        10-31       Accounts Receivable                                                      A
        10-32       FBWT and Unexpended Appropriations                                       C


1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 12, 2010
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components



                                                                  5
                                                                                                               Appendix A
                                               U.S. Coast Guard
                             Crosswalk - Financial Management Comments to NFRs
                                              September 30, 2010


NC	       Contributed to Noncompliance with laws, regulations, contracts, and grant agreements at the Department level when
         combined with the results of all other components
NFR	 	    Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A	 	      Financial Management and Reporting
B	 	      Information Technology Controls and System Functionality
C	 	       Fund Balance with Treasury
D	 	      Property, Plant, and Equipment
E	 	      Actuarial and Other Liabilities
F	 	      Budgetary Accounting
G	 	      Other Entity-Level Controls
H	 	      Custodial Revenue and Drawback
I	 	      Federal Managers’ Financial Integrity Act of 1982 (FMFIA), and Laws and Regulations Supporting OMB Circular
          No. A-50, Audit Followup, as revised
J	 	      Federal Financial Management Improvement Act of 1996 (FFMIA)
K	 	      Single Audit Act Amendments of 1996
L	 	      Chief Financial Officers Act of 1990 (CFO Act)
M	 	      Antideficiency Act, as amended (ADA)
N	 	      Government Performance and Results Act of 1993 (GPRA)




                                                             6
 

                                                                                                       Appendix B
                                                   U.S. Coast Guard
                                               Status of Prior Year NFRs
                                                  September 30, 2010


                                                                                            Disposition1
                                                                                                    Repeat
       NFR No.                                    Description                        Closed2
                                                                                               (2010 NFR No.)
        09-01      Statement of Net Cost                                                         USCG 10-03
        09-02      Contracting Officer Warrant Authority                                         USCG 10-04
        09-03      Accounts Payable Accrual                                                      USCG 10-26
        09-04      Purchase Requests/Commitments                                                 USCG 10-02
        09-05      Number not used                                                         Not applicable
        09-06      Operating Materials and Supplies                                              USCG 10-23
                                                                                                 USCG 10-22,
        09-07      Accrued Payroll and Unfunded Leave Accrual
                                                                                                   10-24
        09-08      PP&E Construction In Process (CIP)                                            USCG 10-17
        09-09      Actuarial Post-Employment Travel Liability                                    USCG 10-13
        09-10      PP&E Repairables                                                              USCG 10-14
        09-11      Number not used                                                         Not applicable
        09-12      Actuarial Medical Liability                                                   USCG 10-30
        09-13      Intragovernmental Transactions and Balances                                   USCG 10-15
        09-14      Financial Disclosure Reports                                                  USCG 10-10
        09-15      Environmental Liability                                                       USCG 10-05
        09-16      Number not used                                                         Not applicable
        09-17      Accounts Receivable                                                           USCG 10-31
        09-18      PP&E Asset Records                                                            USCG 10-11
        09-19      Undelivered Orders                                                            USCG 10-27
        09-20      Cumulative Results of Operations                                              USCG 10-09
        09-21      Federal Financial Management Improvement Act (FFMIA)                          USCG 10-08
        09-22      FBWT – Reconciliation / Military and Civilian Payroll Processes               USCG 10-20
        09-23      PP&E Non-Construction In Process (CIP) Assets                                 USCG 10-06
        09-24      Federal Manager Financial Integrity Act                                       USCG 10-29
        09-25      Suspense Accounts                                                             USCG 10-21
        09-26      Vessels and Small Boats Useful Lives                                          USCG 10-07
        09-27      Year-end Pipeline Adjustment                                                  USCG 10-27
        09-28      Legal Liability Reporting                                                     USCG 10-12
        09-29      Financial Management Oversight                                                USCG 10-18
        09-30      Financial Statement Disclosures                                     X
        09-31      Financial Reporting Process                                                   USCG 10-28
        09-32      Number not used                                                         Not applicable
        09-33      Heritage Assets                                                               USCG 10-01
        09-34      Non-Expenditure Transfer Forms                                      X

1
  KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and
for the year ended September 30, 2010, and was not engaged to perform an audit over the statement of net cost,
statement of changes in net position, and statement of budgetary resources for the year ended September 30, 2010.
In addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies



                                                                7
                                                                                                  Appendix B
                                             U.S. Coast Guard
                                         Status of Prior Year NFRs
                                            September 30, 2010


reported in KPMG’s Independent Auditors’ Report dated November 13, 2009.
2
 NFRs were closed either through remediation of the findings or that we were not engaged to follow up on active
NFRs that did not support significant deficiencies reported in KPMG’s Independent Auditors’ Report dated
November 13, 2009.




                                                      8
 

                                                                                                    Appendix C
                                   U.S. Coast Guard
                           Management Response to the 

                              Management Letter 





U.S. Department o~.                  Commandant
                                     United States Coast Guard
                                                                    2100 Second Street, SW, Stop 7245
                                                                    Washington, DC 20593·7245
Homeland Security
                                                                    Staff Symbol: CG·84
                                                                    Phone: (202) 372-3652
United States                                                       Fax: (202) 372-3945
Coast Guard                                                         Email: Patrick.Flynn@uscg.mil


                                                                    7500
                                                                     FEB 242011

From:                                                               Reply to CG-84
                                                                    Attn of: Captain Patrick Flynn
                                                                             202-372-3652
To:     Anne L. Richards
        DHS Assistant Inspector General for Audits

Subj:   MANAGEMENT LETTER FOR THE U.S. COAST GUARD'S
        FINANCIAL STATEMENT AUDIT; OIG PROJECT NO. 10-069-AUD-MGMT (b)

I. Attached is our response to your Draft Report: Management Letter for the FY 2010
U.S. Coast Guard's Financial Statement Audit.

2. Should you have any questions, please contact Captain Patrick Flynn at (202)-372-3652.

                                                #

End:    (I) U.S. Coast Guard Financial Management Comments




                                              9
 

                                                                                                  Appendix C
                                    U.S. Coast Guard
                           Management Response to the 

                              Management Letter 





                                       u.s. Coast Guard
                               Financial Management Comments
                                      September 30, 2010

FMC 10-01- Legal Liability Reporting (NFR No. USCG 10·12)

Recommendation # 1: Review, document, and implement a process to support the 20%
threshold prescribed for the quarterly floor to file check of open case files.

   Coast Guard Response: The Coast Guard concurs with this recommendation. The Coast
   Guard is developing a process to document and support the 20% threshold prescribed for the
   quarterly floor to file check of open case files. This process will be fully implemented by
   March 31, 2011.

Recommendation # 2: Develop, document and implement stronger internal controls over the
mathematical calcula\ion of the historical payout rate calculation, management schedule and
aggregate reports to prevent future errors.

   Coast Guard Response: The Coast Guard concurs with this recommendation. The Coast
   Guard submitted a corrected FY10 3"' quarter report and implemented a standardized review
   checklist to strengthen the internal controls over the mathematical calculations used in the
   quarterly reports. This control was implemented prior to the FYIO 4 th quarter reporting
   period. Additionally, the review checklist was incorporated into the Desk Officer's Standard
   Operating Procedure (SOP).

Recommendation # 3: Develop, document, and implement a process to ensure that settlements
paid out of the Judgment Fund are properly captured in the quarterly legal liabilities balance
calculation.

    Coast Guard Response: The Coast Guard concurs with this recommendation. The Coast
   Guard is reviewing the current procedures and implementing additional monitoring controls
   to ensure settlements paid out of the Judgment Fund are properly captured in the quarterly
   legal liabilities balance.


FMC 10-02 - Accrued Payroll and Unfunded Leave Accrual (Military) (NFR No. USCG 10-22)

Recommendation # 1: We recommend that Coast Guard continue to reinforce, test and validate
the internal controls to ensure the policies and procedures requiring management review of
member personnel data changes at the Servicing Personnel Offices (SPOs) and the Pay &
Personnel Center (PPC), include:
    • Review and approval for pay transactions,
    • Review of source documentation for request and approval of leave transactions, and
    • Review of account balances included in the leave liability calculation.




                                             10
 

                                                                                                  Appendix C
                                    U.S. Coast Guard
                            Management Response to the 

                               Management Letter 





                                       u.s. Coast Guard
                               Financial Management Comments
                                      September 30, 2010

    Coast Guard Response: The Coast Guard concurs with this recommendation. The
    following corrective actions have been started:
        • The Assistant Commandant for Human Resources (CG-I) and the Assistant
           Commandant for Resources (CG-8) submitted a software system change request to
           the Assistant Commandant for Commandant for Command, Control,
           Communications, Computers and Information Technology (CG-6) for proper
           separation of duties (review and approval) for pay-related transactions in Direct
           Access. This is being coded and implemented.
        • The Assistant Commandant for Resources is reviewing the guidance for leave
           document retention and researching alternate leave process solutions that are in
           accordance with National Archives and Records Administration standards.
       •   The PPC has submitted a system change request to payroll to correct the leave
           liability report to exclude members who are no longer earning pay.
       •   The PPC has implemented a new process of data extracts for detailed leave balances
           and a reconciliation of employee !D's with the employee !D's included in the payroll
           disbursement.
       •   The Coast Guard will research the requirement to retain retired members' tax
           withholding supporting documentation for self-service charges (when a member does
           it themselves on-line).


FMC 10-03 - Operating Materials and Supplies (OM&S) (NFR No. USCG 10-23)

Recommendation # 1: Review and remediate issues with classification between repairables
(recorded as PP&E) and consumables (recorded as OM&S), valuation procedures involving
weighted average pricing, the time lag between the execution of IPACs by other federal agencies,
and the disposal of material excess to the CG need.

   Coast Guard Response: The Coast Guard concurs with this recommendation. The Coast
   Guard is developing additional controls to remediate issues related to the classification
   between repairables (recorded as PP&E) and consumables (recorded as OM&S), valuation
   procedures involving weighted average pricing, time lag between the execution of IPACs by
   other federal agencies, and the disposal of material excess to the Coast Guard need. These
   actions will be fully implemented prior to September 30, 2011.

Recommendation # 2: Record differences identified during the FYIO valuation testing for
sample items reviewed for the Surface Forces Logistics and the Aviation Logistics Center.

   Coast Guard Response: The Coast Guard concurs with this recommendation. The
   adjustments and corrections have been made. The valuation validation will be completed by
   February 28, 2011.




                                             11
 

                                                                                                   Appendix C
                                     U.S. Coast Guard
                            Management Response to the 

                               Management Letter 





                                        U.S. Coast Guard
                                Financial Management Comments
                                       September 30, 2010

Recommendation # 3: Perform an analysis to determine the cause of the errors identified during
the FY 10 testing and identify improvements to current controls and procedures.

   Coast Guard Response: The Coast Guard concurs with this recommendation. The Coast
   Guard completed the analysis to determine the cause of the errors identified during the FYIO
   testing and has corrected the errors. The Coast Guard identified improvements to current
   controls and procedures, and is currently implementing the changes.

Recommendation # 4: Review quarterly validation procedures and make changes as required to
further emphasize the need to perform valuation validation procedures at the inventory control
points as part of the quarterly review procedures.

   Coast Guard Response: The Coast Guard concurs with this recommendation. The Coast
   Guard is preparing the valuation validation procedures. These procedures will be fully
   implemented prior to June 30, 201 J.

Recommendation # 5: Review the policies, procedures, and internal controls associated with
material handling forms used at air stations as well as the need for standardized forms at these
locations.

   Coast Guard Response: The Coast Guard concurs with this recommendation. The Coast
   Guard is updating the policies, procedures, and internal controls associated with material
   handling forms used at air stations as well as the need for standardized forms at these
   locations. The estimated completion date for updating the policies and procedures is March
   31,2011.




                                               12
 

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
